No. 19-1074
IN THE

~upreme <!Court of tbe Wniteb ~tates
CELGENE CORPORATION,

Petitioner,

V.

LAURA A. PETER, DEPUTY UNDER SECRETARY
OF COMMERCE FOR INTELLECTUAL PROPERTY
AND DEPUTY DIRECTOR OF THE U.S.
PATENT AND TRADEMARK OFFICE,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Reply for
Petitioner in Celgene Corporation u. Peter, No. 19~1074, complies with the word
limitations, as it contains 2,987 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: May 15, 2020

Robert N. Stander

